<html>
<title> - THE STATE OF POLITICAL AND RELIGIOUS FREEDOM IN THE MIDDLE EAST</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
    THE STATE OF POLITICAL AND RELIGIOUS FREEDOM IN THE MIDDLE EAST

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2009

                               __________

                           Serial No. 111-77

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
53-674                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1275627d52716761667a777e623c717d7f3c">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                  GARY L. ACKERMAN, New York, Chairman
RUSS CARNAHAN, Missouri              DAN BURTON, Indiana
MICHAEL E. McMAHON, New York         JOE WILSON, South Carolina
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
SHELLEY BERKLEY, Nevada              JEFF FORTENBERRY, Nebraska
JOSEPH CROWLEY, New York             MICHAEL T. McCAUL, Texas
MIKE ROSS, Arkansas                  BOB INGLIS, South Carolina
JIM COSTA, California                GUS BILIRAKIS, Florida
KEITH ELLISON, Minnesota             DANA ROHRABACHER, California
RON KLEIN, Florida                   EDWARD R. ROYCE, California
BRAD SHERMAN, California
ROBERT WEXLER, 
    Florida<greek-l>Until 12/1/
    09 deg.
ELIOT L. ENGEL, New York
GERALD E. CONNOLLY, Virginia
GENE GREEN, Texas
              Howard Diamond, Subcommittee Staff Director
           Mark Walker, Republican Professional Staff Member
 Dalis Adler, Staff Associate<greek-l>From Blumenfeld as of 9/9/09 deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Michael H. Posner, Assistant Secretary, Bureau of 
  Democracy, Human Rights, and Labor, U.S. Department of State...    10

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Gary L. Ackerman, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the Middle 
  East and South Asia: Prepared statement........................     3
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................     8
The Honorable Michael H. Posner: Prepared statement..............    12

                                APPENDIX

Hearing notice...................................................    26
Hearing minutes..................................................    27
Statement of Representatives Anna G. Eshoo and Frank Wolf, Co-
  Chairs, Religious Minorities in the Middle East Caucus.........    28
Questions of Representative Anna G. Eshoo........................    35
The Honorable Michael H. Posner: IRF Report, Introduction........    38


    THE STATE OF POLITICAL AND RELIGIOUS FREEDOM IN THE MIDDLE EAST

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2009

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2172, Rayburn House Office Building, Hon. Gary L. Ackerman 
(chairman of the subcommittee) presiding.
    Mr. Ackerman. The committee will come to order.
    In some places, and particularly in the Middle East, people 
may wonder about the sincerity of American concern about 
religious freedom. Skeptics, especially in the Arab world, may 
suspect that our professed interest in the freedom of belief, 
thought, and worship is merely a cudgel we use to beat our 
political opponents when convenient.
    Such thinking is not only completely wrong on the facts, 
but utterly misunderstands our national character, which has 
always held to the belief in universal rights and the hope that 
these rights would spread throughout the world.
    Among the Founders, Thomas Jefferson put it best in a 
letter sent only days before the 50th anniversary of our 
independence. Referring to that great July 4th 50 years 
earlier, he wrote:

          ``May it be to the world, what I believe it will be, 
        (to some parts sooner, to others later, but finally to 
        all,) the signal of arousing men to burst the chains 
        under which monkish ignorance and superstition had 
        persuaded them to bind themselves, and to assume the 
        blessings and security of self-government. That form 
        which we have substituted, restores the free right to 
        the unbounded exercise of reason and freedom of 
        opinion.''

So said Jefferson.
    Whatever his other failings, Jefferson understood and 
expressed better than any other of the founding generation the 
ideals that have set the United States apart and won for us a 
special destiny.
    And, in fact, that unique drive to share the blessings of 
freedom pervaded even those earliest years of the American 
diplomatic engagement with the Middle East. Though even few 
Americans recall or learn little of our Nation's involvement in 
the Arab world before the 20th century, the fact is among our 
Nation's very earliest foreign policy struggles and successes, 
the Middle East played a very prominent role. And in seeking to 
protect American ships from piracy in the southern 
Mediterranean from the very start, American diplomats and 
envoys took it upon themselves to seek protection for religious 
minorities. And this work continues to this very day.
    It is probably true that our relations throughout the 
region would be considerably simplified if we chose to regard 
religious discrimination and repression in other countries as 
purely internal matters. Many other states have taken this 
approach. But such an abdication of our most fundamental 
beliefs is not within the character of this country, not now, 
and not in the future. For better or worse, we are called to be 
witnesses.
    It is not within our power or desire to shape the affairs 
of other states, but we are not blind to the suffering and 
misfortune which is meted out daily throughout the world, and 
particularly in the Middle East, on the basis of religion, even 
among our close allies. So as we are not blind or deaf, we must 
not also be mute.
    There are several reasons for this obligation. First, we 
must be true to our own values. Religious freedom is a core 
American value, and remaining silent in the face of evil is to 
become complicit with that evil.
    Secondly, as we maintain our belief in the righteousness of 
our values, we must also maintain hope that others will 
recognize and come to accept what we have always held to be 
self-evident truths.
    And finally, both the victims and the perpetrators of 
religious bias, discrimination and violence should know that we 
are watching, and we are aware, and we are concerned. However 
certain the perpetrators of these acts may be of their 
authority, they rarely like to have their deeds exposed. Power 
cannot dispel shame.
    And we are not without misdeeds ourselves. Our own history 
is sadly rife with long years of repression and outbreaks of 
brutality. But while our history may be flawed, the ideals to 
which we are ever struggling to come closer are not.
    The right to believe or not, and to exercise that belief in 
worship and religious practice, is not a different thing here 
in the United States than it is in the Middle East or in any 
other place.
    Some of our allies will complain that behind the facade of 
religion lie threats of the utmost urgency to their states and 
to the well-being of their publics. That may be so. But the 
obligation to distinguish between legal association and 
criticism, and illegal conspiracy and treason, lies with the 
state. The responsibility to protect the weak and the helpless 
from the strong and the powerful lies with the state. The 
boundary between the religious character of a nation and the 
secular aspect of a government must be maintained by the state.
    We do not expect every, or any, nation to become cookie-
cutter copies of the United States, but we do expect that 
states will adhere to their own international commitments and 
treaty obligations.
    Jefferson concluded his letter with,

        ``All eyes are opened, or opening, to the rights of 
        man. The general spread of the light of science has 
        already laid open to every view the palpable truth, 
        that the mass of mankind has not been born with saddles 
        on their backs, nor a favored few booted and spurred, 
        ready to ride them legitimately, by the grace of God. 
        These are grounds of hope for others. For ourselves, 
        let the annual return of this day forever refresh our 
        recollections of these rights, and an undiminished 
        devotion to them.''

    [The prepared statement of Mr. Ackerman 
follows:]<greek-l>Ackerman statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, and I would like to 
thank our assistant secretary, Mr. Posner, for testifying this 
afternoon.
    Today we are here to discuss the state of political and 
religious freedom in the Middle East, which our witness is well 
aware of with last month's release of the State Department's 
2009 Report on International Religious Freedom.
    I recently joined several of my colleagues, including 
Chairman Ackerman, in sending a letter to the select member 
states of the United Nations about the defamation of religions 
resolution that is annually considered by the U.N. Human Rights 
Council and the U.N. General Assembly. This resolution is 
inconsistent with the basic freedoms of religion and 
expression, and the fact it is annually considered by the U.N. 
highlights the problem the U.S. faces in promoting these 
freedoms across the globe.
    The International Religious Freedom Act of 1998 named the 
promotion of religious freedom for all persons as a core 
objective of U.S. foreign policy. I agree with this as 
religious freedom is a fundamental human right. However, there 
are significant challenges to these freedoms throughout many 
parts of the world, particularly in several Middle Eastern 
countries. In these countries religious minorities do not enjoy 
equal access to the basic services and opportunities those 
belonging to the religious majority are afforded.
    I understand from your testimony, Assistant Secretary 
Posner, that the State Department is exploring ways to increase 
our capacity to engage the region's faith leaders as a way to 
bolster human rights and religious equality throughout the 
region. However, in a region extremely leery of Western 
involvement, how do we do this while avoiding a political 
backlash from regional governments, and Islamists, and 
especially avoiding charges of meddling in domestic affairs?
    I look forward to hearing from you on this fundamental 
question. Again, thank you for being here.
    I yield back my time.
    Mr. Ackerman. Thank you.
    Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, what an appropriate hearing 
as we continue to assess the conditions, both political, 
democratic and religious conditions, in the Mideast, a region 
in which I believe there is hope. But we cannot avoid the hard 
questions, and I look forward to hearing Assistant Secretary 
Posner on these issues.
    I want to just highlight my concerns in particular with 
Iran. Throughout 2009, the Government of Iran has persistently 
violated the rights of its citizens. The Government of Iran's 
most overt display of disregard for political rights happened 
in the Presidential elections of June 12, 2009. And as I said 
on June 19th, 2009, we must condemn Iran for the absence of 
fair and free Presidential elections and urge Iran to provide 
its people with the opportunity to engage in democratic 
election processes. All of that contributes to the respect for 
individual rights. And we have seen repression and murder, 
arbitrary arrests, and show trials of peaceful dissidents in 
the wake of elections. It was a sad reminder. Right now 
Americans are being detained in Iran, which, again, emphasizes 
the lack of respect for human rights.
    This whole issue of religion is also a question. In spite 
of Iran's constitutional guarantee that non-Shiite Muslims and 
other religious groups, including Zoroastrians, Christians and 
Jews, are protected, the State Department's annual Report on 
International Religious Freedom describes discrimination for 
those groups and the situation for religious minorities in Iran 
as ``deteriorating.'' I might be more forceful and say 
``nonexistent.''
    National security and regional stability are overriding 
concerns with regard to Iran, but the rights violations that 
the Government of Iran perpetrates against its citizens are 
similarly unacceptable.
    I have constituents from Iran, families who have been 
separated from each other, who have not been allowed to 
reconcile or to engage because of the problems in Iran. When we 
consider our relations with Iran, human rights, including 
political and religious freedoms, must be a high priority.
    Just as well, even as we have made progress in Iraq, I am 
concerned about the political and religious freedoms in Iraq, 
because the degree to which Iraq protects those rights is a 
reflection on our own country and what we have been able to 
accomplish. There are groups, for example, that do exist, but 
do not have the protection in Iraq.
    This year, 3 months after United States forces turned over 
control of Camp Ashraf, Iraqi security forces violated the 
human rights of the People's Mujahedin of Iran. Camp Ashraf 
detains over 3,400 exiled Iranian political dissidents or 
members of the PMOI, including over 1,000 women. Detaining is 
one we disagree with, but the oppression and violence is one 
that we cannot tolerate. The PMOI opposes the current Iranian 
regime, and for their political beliefs they have been exiled 
from Iran and sequestered in Camp Ashraf. Several women 
detained in this camp have reported acts of intimidation and 
threats of physical and sexual violence by members of the Iraqi 
security forces. I would only suggest that as we begin to 
highlight this question, we have to stand as well for the 
respect of all faiths.
    I conclude by saying just in the past week, we were able to 
meet with the mayor of Jerusalem, who envisioned a Jerusalem 
where people of all faiths can live and worship as they choose. 
For those of us who have visited Israel, we can see where all 
religions converge. I support that concept. Let us have all 
religions converging, wherever they may find themselves, and 
let us hold as sacred the rights of people to practice their 
faith, a faith that is nonviolent, their faith that promotes 
unity, their faith that promotes love. And all the religions 
that I have been able to study in the world follow in that 
tradition. It is only when those traditions are violated when 
horrible and horrific acts are perpetrated under the name of 
religion. I hope we can support the religion that brings unity 
and reconciliation.
    Mr. Chairman, I yield back.
    Mr. Ackerman. Thank you.
    We will now hear from my partner on the subcommittee, the 
distinguished ranking member from Indiana, Mr. Burton.
    Mr. Burton. Mr. Chairman, I want to once again apologize. 
This is my third or fourth--I can't remember--hearing today, so 
I may start talking about a subject that is not even relevant 
to this hearing because of another committee. If I do, would 
you kind of hit me in the arm?
    Mr. Ackerman. We have never done that before.
    Mr. Burton. I am going to submit my statement for the 
record so we can get to the witness.
    But I would like to just say, Mr. Chairman, that there are 
a number of resolutions that we have talked about that have 
been supported and sponsored by Mr. Bilirakis, Mr. Crowley, Mr. 
Wolf and myself that deal with religious freedom and 
understanding in the Middle East, and I was hoping we might be 
able to talk about those or have a markup today. But since we 
haven't been able to, would it be possible for us to maybe take 
a hard look at those down the road?
    Mr. Ackerman. We will be taking a look at it.
    Mr. Burton. Well, if you could, I would appreciate it.
    I yield back, and just submit my statement for the record.
    Mr. Ackerman. I thank the distinguished gentleman.
    [The prepared statement of Mr. Burton 
follows:]<greek-l>Burton statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Ackerman. It is now my pleasure to introduce the new 
assistant secretary of state for Democracy, Human Rights and 
Labor, Mr. Michael H. Posner. We are delighted to have him here 
with us today.
    Secretary Posner may be new to the subcommittee, but he has 
a long and distinguished history when it comes to promoting 
human rights. Prior to being confirmed as assistant secretary 
in September 2009, Mr. Posner was the executive director and 
then president of Human Rights First. During his tenure at 
Human Rights First, the organization was at the very forefront 
of U.S. and international efforts to enhance refugee 
protections, to demand accountability for crimes against 
humanity, and to combat all forms of illicit discrimination. 
Secretary Posner is probably best known for his effort to 
reintegrate human rights principles into even the most 
sensitive parts of the American national security efforts.
    Mr. Secretary, without objection, your full written 
statement will be entered into the record, and I would ask you 
to summarize your testimony so that we could then move directly 
to questions.
    You may begin as you will.

    STATEMENT OF THE HONORABLE MICHAEL H. POSNER, ASSISTANT 
 SECRETARY, BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. 
                      DEPARTMENT OF STATE

    Mr. Posner. Thank you. Chairman Ackerman and members of the 
subcommittee, it is an honor to be here today to discuss this 
important issue. In addition to my written statement, I would 
like to ask that the International Religious Freedom Report's 
introduction and executive summary be entered into the record.
    Mr. Ackerman. Without objection.
    Mr. Posner. Thank you.
    Mr. Chairman, you mentioned the universal application of 
human rights standards, and that is, in fact, one of the 
cornerstones of the Obama administration's approach to these 
issues, very much in the spirit of Jefferson. We believe that 
there are international and know that there are international 
standards that allow for free expression of religion, and allow 
people to choose and practice their religion, and that there be 
a tolerance of differences.
    We also are very much committed to what we are calling 
principled engagement. President Obama's important speech in 
Cairo in June of this year set the tone for that, and he spoke 
about the importance of religious tolerance and religious 
freedom. He said people in every country should be free to 
choose and live their faith based on the persuasion of the mind 
and the heart and the soul. This tolerance is essential for 
religion to thrive.
    A third element of what we are trying to do is to support 
broader civil society and allow civil society to flourish in 
countries around the world, including religious minorities. 
Sadly, in the Middle East region, as you have indicated, as all 
of you have indicated, there are a range of very troubling 
problems. I just want to highlight very quickly three 
countries, and then we can open up to questions.
    The first is Iran. Congresswoman Jackson Lee made reference 
to it. It is one of two countries in the region that are 
designated countries of particular concern, and has been for 
some time. And, as she said, there is a much broader pattern of 
disrespect for human rights in Iran, intensified after the 
election with the crushing of demonstrations, imprisonment of 
people, detention and mistreatment.
    But the respect for religious freedom in Iran is also a 
serious problem, the disrespect, and it continues to 
deteriorate. The government's rhetoric and actions against all 
non-Shia religious groups, particularly the Baha'i, the Sufi, 
evangelical Christians and Jews, is something that simply can't 
be tolerated. We continue to receive reports of imprisonment, 
harassment, intimidation and discrimination based on religious 
beliefs.
    One case in particular that I would mention is the case of 
seven Baha'i leaders who were detained between March and May 
2008. They weren't charged for 9 months, at which point they 
were charged with security offenses, including spying for 
Israel. In February of this year, a spokesman for the judiciary 
said that in addition to espionage, they also are going to be 
charged with ``spreading corruption on Earth,'' which is a 
crime punishable by death. The Baha'i community in particular 
has really been targeted in Iran.
    I will just say finally with respect to Iran that either 
today or tomorrow the U.N. General Assembly is going to 
consider a resolution on human rights in Iran, which has, more 
than it has ever had in the past, reference to and expression 
of concern about the denial of religious freedom to the Baha'i, 
Sufi and others. We are very much supporting that, and we are 
at this point cautiously hopeful that that resolution will be 
adopted, as it has been in the last several years.
    You might ask, why do we spend the time and energy doing 
it? We do it because it is a signal to democratic forces in 
Iran that the world is watching, and we know what is happening. 
It is a piece of solidarity.
    The second country that I will mention very briefly is 
Saudi Arabia, which is also a country of particular concern for 
what we call systematic, ongoing egregious violations of 
religious freedom. Freedom of religion is not recognized or 
protected, and for non-Muslims, there is not even the ability 
to practice their religion in public. Even Saudi Shia face 
significant religious discrimination, which I would be glad to 
go into if people want to discuss it further.
    But it is the case that we continue to follow very closely 
a very, very restrictive regime there and believe that much 
work needs to be done. And Members of Congress have been 
helpful in that regard by constantly reminding us of the 
seriousness of the situation.
    The third and last country that I will mention, again very 
briefly, is Egypt. It is a place where actual respect for 
religious freedom has declined in the last 3 years. And in 
particular I want to raise our concerns about the government's 
inaction, or insufficient action, in protecting the Coptic 
Christian population of Egypt. There are attacks against that 
population, and the government continues to try to avoid any 
legal accountability for the perpetrators of those attacks.
    An example is the assault on the Abu Fana Monastery in 
2008. Two Coptic brothers were arrested in connection with that 
bombing. They were held for 14 months. They were finally 
released, but their release was conditioned on an agreement 
with the government that the monastery drop criminal charges 
against those who actually perpetrated the attack. That lack of 
accountability we think actually perpetuates more violence and 
attacks against the Coptic community.
    The last thing with respect to Egypt is the unified law. We 
are particularly concerned about the lack of attention to 
passing that law, which would treat all religious groups 
equally with regard to requirements for obtaining building 
permits to construct or repair worship facilities. And the 
effect of not having that law and existing laws on the books is 
that religious groups, including the Coptic Christian 
community, are often precluded from building houses of worship 
or repairing them.
    So these are practical things we believe can and should be 
done in all of these places.
    With that I want to stop and just take your questions. 
Thank you very much.
    Mr. Ackerman. Thank you very much, Mr. Secretary.
    [The prepared statement of Mr. Posner 
follows:]<greek-l>Michael Posner deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Let me ask a general question. How do we 
engage those countries in the region on this issue, countries 
that are our friends or our allies or who are helpful to us?
    Mr. Posner. We are, Congressman, engaging with these 
countries in a range of ways. We can't treat all of these 
countries in the same way, given the nature of the 
relationship. We don't have a relationship with the Iranian 
Government, for example. There is a long list of things I would 
love to be able to push----
    Mr. Ackerman. I wasn't exactly counting them as our 
friends.
    Mr. Posner. That is right.
    I think with the two other countries I mentioned, I 
mentioned them particularly because they are countries that we 
have a close relationship with, and I think it is particularly 
incumbent on us in places like Saudi Arabia and Egypt to be 
raising these and related issues constantly.
    Mr. Ackerman. It was basically a ``how'' question. How do 
we do it?
    Mr. Posner. Well, I think we do it on several levels. At 
the 30,000-feet level, the President's speech in June set a 
very positive tone. It was a speech of engagement, but at the 
same time a speech that recognized the importance of these 
issues.
    We are now involved with Egypt in a set of discussions, a 
set of bilateral discussions, that will include these issues. 
And that is part of my job is to make sure that these issues 
are getting raised. I plan to visit Egypt in the near future. 
We have a dialogue scheduled for mid-December with the 
Egyptians. It is critical that these issues be on the agenda 
and that we keep raising them and keep, again, reaching out to 
the religious community--in the case of Egypt the Coptic 
community in the case of Saudi Arabia the Shia community--to 
make sure that we are highlighting the importance we place on 
these subjects.
    We need to keep--it shouldn't be just me or the Human 
Rights Bureau that is saying it to them. This needs to be done 
across the government. Again, the interest that Congress shows 
reinforces that commitment and allows us to do this in the best 
way possible.
    Mr. Ackerman. A lot of that does go on with respect to the 
legislative branch. We have Members, besides all of our general 
interests, who have specific and keen interests in specific 
minorities, and many in all minorities, and their ability to 
practice their rights, including freedom of religion high among 
them, in these various places in the Middle East.
    On the level of the administration, besides the necessary 
hand-holding, for lack of a better word, with those communities 
that need the assurances and bolstering up that we in the world 
are watching, is this brought up in any other way besides 
through your position? You just mentioned it should be through 
others as well. Do we seek--and I am talking about with our 
friends now. It is easy to beat up on our enemies because we 
don't have to be as sensitive sometimes, at least we think 
that, in the way that we cudgel them. But is there or should 
there be conditionality on the things that they expect from us? 
When we talk about those within the defense wing of our 
administration, should they be bringing this up? When we talk 
about trade issues, should we be bringing that up? When we talk 
about even humanitarian or other kinds of aid, should we be 
bringing it up? And then after you say yes to all of that, I 
don't want to preempt you, the real question is are we bringing 
it up, and when was the last time we did?
    Mr. Posner. Yes. Again, I think there is a larger question 
of the relationship between a whole range of human rights 
issues and conditionality of aid, and it will depend on each 
situation.
    I would say both on a bilateral basis and a multilateral 
basis we can and should be doing more. We have, for example--
again focusing on Egypt, we have a very strong relationship 
with the Government of Egypt, and there is a long list of 
things that I would like to see us raise, and I will be raising 
with them. But it has to be raised across the board.
    Mr. Ackerman. Yes. But specifically, it should be, it must 
be, it ought to be, it needs to be; my question is, is it 
being? Has it been? When Egypt comes to us and says they need, 
legitimately we will stipulate, certain types of military 
equipment or defense things, or Saudi Arabia needs some 
information, or ``pick your country'' does--and this is outside 
of your shop, but you know it needs to be done because you 
brought it up, and we know it has to be brought up, because we 
bring it up on all levels that we engage, at least most serious 
Members of Congress that I know--is it being brought up? Is 
this an issue for the Secretary of Defense, or are the other 
issues too important to dull his other messages with this 
goody-goody stuff?
    Mr. Posner. Mr. Chairman, this is essentially the 
centerpiece of what I am committed to do in this job. I have 
been on the job 2 months, and I am convinced that if we don't 
have an integrated approach to human rights issues throughout 
different agencies, we are not going to be effective on these 
things.
    Has it been done? It has been done episodically in various 
ways in various places. Could it be done more? Yes. Should it 
be done more? Yes. Am I committed to trying to make that 
happen? Yes. Am I going to succeed? I don't know.
    But I can say to you, and I will make this commitment, that 
in dealing with countries that are our closest allies, we ought 
to be using every opportunity we can and across the government 
to make sure that these central issues which matter so much to 
us in our own society are registered as issues of concern. It 
is precisely either the Trade Representative or the Defense 
Department that ought to be raising these issues.
    Mr. Ackerman. I have overextended my time, and I will 
yield--my colleague is indicating that--I will extend whatever 
time you need.
    Mr. Burton. I never worry about you overextending your 
time, Mr. Chairman. You are my buddy, and you can have another 
5 seconds if you like.
    Mr. Ackerman. It is good to have buddies like that.
    I hear what you are saying, and your appreciation and 
effort on the issue is duly noted historically through even the 
short tenure that you have had on your current job. We cannot 
hold you responsible for other agencies of the executive 
branch, either to know what they are doing or to be responsible 
for them not doing it. But would it be inappropriate for you to 
send a memo to the secretary of this and that, whatever 
``that'' and ``this'' is, to suggest to them that these issues 
are of great overriding national concern on a humanitarian 
basis, and it is really what America is all about, and ask them 
to bring it up? Because we do badger them from time to time, 
but I think somebody from inside that shop might lend a little 
bit of additional suasion.
    Mr. Posner. It took me 6 or 7 months to get through the 
confirmation process. And part of what I did was to reach out 
to other agencies in just the way you are describing to get a 
better sense of how I can communicate more regularly with both 
the economic and trade people, as well as people in Defense and 
Justice, et cetera. So I very much take to heart what you have 
just said, and it is something that I intend to keep doing.
    If I just say one thing on the multilateral side, too, if 
you will just give me 1 second here. We have done two things. 
Congressman Green mentioned the defamation of religion 
resolution at the U.N., which we fought very hard against. I 
think there are opportunities in the context of the U.N. and 
other international organizations for us also to be raising 
these concerns and enlisting our allies, European and other 
allies, to join that fight.
    It seems to me there is some combination of trying to 
figure affirmative ways to work with governments, in this 
respect Egypt, on a resolution on freedom of expression that we 
cosponsored at the Human Rights Council and got unanimous 
support for. It gave us the ability to then go in and challenge 
the overreaching and totally unacceptable defamation of 
religion resolution which they and others have been driving. 
Egypt and Pakistan drive that train. Those are both allies of 
the United States, and I think we ought to be very mindful of 
the fact that our close allies should not be fighting with us 
about these very basic things at the United Nations. So that is 
another piece of this which I am very keen that we bring in.
    Susan Rice's shop is now engaged in those issues. Esther 
Brimmer, who is the assistant secretary for international 
organizations, is trying to broaden the discussion of this 
beyond just the particulars to also find a way for us to be 
pushing some of our allies to be stronger on some of these 
things.
    Mr. Ackerman. Thank you very much.
    Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman.
    I believe the secretary just said that interest that 
Congress shows has an impact, and I realize that the State 
Department going to these other Middle East countries--and I 
presume that is what you will be doing, Mr. Secretary--has a 
positive impact. But a resolution or resolutions passed by the 
Congress talking about religious freedom and understanding, I 
think, would be a real asset to our State Department people 
that go over there.
    Therefore, I would like to ask you one more time, Mr. 
Chairman, to take a hard look at the bills that are cosponsored 
on a bipartisan basis regarding religious freedom that have 
been introduced and that I think would augment what the State 
Department is trying to do. This is not a partisan issue. It is 
a bipartisan issue.
    I would also like to thank the chairman of the full 
committee for moving the Iran sanctions bill out of our 
committee in October, and I hope that we can get the other 
relevant committees to sign off on that so we can get that bill 
to the floor as quickly as possible. And with your tremendous 
influence, I know you can help us get that done. You are from 
New York. You can get all kinds of things done. You even got 
the Yankees to win the World Series.
    Mr. Ackerman. I was no help to the Mets.
    Mr. Burton. Well, that is true, too.
    I do want to talk about one serious thing, and that is the 
Saudi Arabians. The President, when he was over there, he bowed 
to the Saudi King, and he showed deference. Many of us were 
concerned about that. But, nevertheless, it was his way of 
showing, I guess, respect to the Saudi King.
    But I went over to Saudi Arabia with a CODEL, a 
congressional delegation, a few years ago, and I think you are 
probably aware of that, Mr. Ambassador. The reason I went over 
there was we had a number of women who had married Saudi young 
men when they were in college or they had met them someplace, 
and they went over there full of love and understanding, and 
they end up with their children sleeping on the kitchen floor 
and living a life that was hellacious, to say the least. We 
even had one woman who got away from her husband, took her 
children to the U.S. Embassy, and our charge, I believe it 
was--I don't think it was the Ambassador, but the charge at 
that time told the Marine guards to take her and her children 
to the front of the embassy gates and return her to her 
husband. And Lord only knows what happened to that woman.
    I had other women come up to me that were Americans that 
said, do anything you can to get us out of here, and they told 
me about their husbands threatening to carve them up with 
knives and kill them, and women are treated without almost any 
respect. So we are talking today about religious freedom, but 
also human rights.
    I think since the Saudis do so much business with us in the 
area of oil and other trade, I think it is important that we 
continue to pressure them to show human rights and freedom to 
American citizens. These are not people that are not citizens; 
American citizens that are being held against their will over 
there, women and their children, and many of their children are 
being forced into marriage when they are 12 years old, and they 
are completely brainwashed.
    I had a woman call me just the other day who had been over 
there. I met with her when I was in Saudi Arabia. She went over 
there to try to get her daughter out, and the religious police 
came in. And because her head was not properly covered--and I 
was talking to her--they were going to arrest her or whip her 
across the ankles or something. When they found out I was a 
Congressman and didn't mind going to jail, they rescinded their 
position.
    So, I think it is important, since you are going to be over 
there and you will be working with our Ambassador, that we 
continue to press them for more equal and free rights for women 
over there and the children. The stories, I had women come to 
meet with me who said if their husband knew they were talking 
to us, they would kill them, and they could probably get away 
with it because of the sharia law or the law they have. I never 
can pronounce that right, sharia law.
    So we, as a free country that has trade and diplomatic 
relations with Saudi Arabia, need to do everything we can to 
help those American citizens, women and children, have their 
rights respected. I know this is a tough issue, but we need to 
have continual pressure. And I hope when you meet with our 
ambassador over there, you will convey my concern and other 
Members' concerns that have concerns here in the Congress of 
the United States.
    With that, Mr. Chairman, I don't think I have any questions 
of the secretary. I think he has been there 2 months. I wish 
him well.
    If we can do anything to work with you to help solve these 
religious freedom issues as well as the human rights issues 
over there, give us a call. We would love to work with you. 
Thank you very much.
    Mr. Ackerman. Did you want to respond? There was no 
question asked.
    Mr. Posner. No. I would only say on the cases that you 
raised, it is, in fact, much easier for us to intervene when 
U.S. citizens are involved. So if cases like that come to your 
attention now, it would really be helpful for me if you would 
send them my way so that I am aware. I am sure the embassy gets 
them, but it would also be helpful, if they come to your 
attention, that I see them. I will convey your concerns, and I 
agree with them.
    Mr. Ackerman. Thank you very much.
    Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman.
    Mr. Posner, I realize you have been on the job for a couple 
months, but I would like to get a better idea of how your 
Bureau of Democracy and Human Rights and Labor is set up; how 
you are going to make changes, if any, in terms of your 
operation; and how you are going to work in conjunction with 
obviously the Secretary of State and the President as you 
pursue efforts to expand democratic institutions and focus on 
human rights as well as the recognition of oppression when we 
see it and religious freedoms as we know them to be, which 
clearly is different in the part of the world we are talking 
about; i.e., the Middle East.
    First of all, tell me what are the tools and leverage that 
your Bureau has to deal, to provide pressure or leverage. How 
would you best describe them, quickly?
    Mr. Posner. Really three things. One, we are involved in 
the policymaking process. I think we need to be more involved 
in that within the State Department and within the government.
    Mr. Costa. You are going to get more involved in that 
policymaking process.
    Number two?
    Mr. Posner. Number two, we are involved in reporting. We do 
the annual Country Reports on Human Rights and Religious 
Freedom, et cetera. But we lay the factual predicate for the 
government to act. Those reports have taken on a life of their 
own. We need to do those well. We need to disseminate them more 
aggressively.
    Mr. Costa. Are those reports confirmed? Are they utilized 
by any credible world agencies?
    Mr. Posner. They are. The Country Reports on Human Rights 
and the Religious Freedom Report are probably the most 
comprehensive reports produced by anybody in the world. The 
U.N., I met today with nine European governments. They use them 
all the time.
    Mr. Costa. What is number three?
    Mr. Posner. The third issue, the third part of our 
operation is really a grantmaking program site. We have about 
$80 million that is available for small grants to promote human 
rights and democracy. So we are able to get in and provide 
direct support.
    Mr. Costa. To deal with the countries directly that you are 
involved with in helping democratic institutions?
    Mr. Posner. We generally make grants to groups like 
National Democratic Institute or Freedom House or the 
International Republican Institute, and they make grants in 
conjunction----
    Mr. Costa. Other organizations, like the National 
Conference of State Legislatures, where emerging democracies 
are taking place? I know we participated in that in the past.
    Mr. Posner. Correct.
    Mr. Costa. So then the second tool that you have, you issue 
these reports. Then the next report that will be coming out on 
the Middle East of countries that are allies and countries that 
are foes, countries like Jordan and Egypt, as you noted, and 
Iraq, that obviously we have been heavily involved in. We will 
have a report on the level of not only human rights issues and 
potential violations, but religious freedoms.
    Do you give criteria<greek-l>s deg. of grades? I have been 
familiar with the religious minorities, for example, that 
existed in Iraq and some of the troubles they are having and 
some of the assassinations that have taken place. You are going 
to rate those?
    Mr. Posner. Actually the two reports that you reference are 
a bit different. One of the things we are trying to do is 
reconcile everything.
    The Report on Religious Freedom that just came out last 
month is a predicate for the Secretary, for the State 
Department making designations of countries of particular 
concern, and that is done on a----
    Mr. Costa. Whether they be friend or foe alike?
    Mr. Posner. Yes. So there are seven or eight countries that 
fall into that category, including in this region Saudi Arabia 
and Iran. And that process is ongoing right now, and there are 
likely to be decisions made in the next few months on that.
    Mr. Costa. So you are going to establish some new 
milestones that this subcommittee and others will be aware of 
as to when the new published reports will come out?
    Mr. Posner. The report is already out. Those designations 
will happen in the next few months. The broader Human Rights 
Report is just a factual summary.
    Mr. Costa. My final question before my time runs out is 
many of us have been concerned as it relates to religious 
freedoms and human rights the sort of curriculum we see taking 
place, whether it is out of Hamas in Palestine or whether it is 
in schools in Saudi Arabia. There have been commitments by 
governments, those that are friends of ours, that they are 
going to make changes in those curriculums that preach jihad, 
that preach religious hatred in essence. And what we find, or 
what I have found, to be the case is that oftentimes whatever 
comments or edicts have been issued by the leadership of those 
governments have fallen short from what has taken place or 
changed in the actual schools themselves; i.e., the curriculum.
    Are you going to be involved in this? Are you going to do 
something about this?
    Mr. Posner. Yes. In fact, this subcommittee and Members of 
Congress have for several years raised and we have taken on 
board an ongoing review process in particular of the Saudi 
textbooks. My predecessors, and I give them much credit for 
this, have entered into an ongoing dialogue with the Saudis 
about this particular subject, and some progress has been made.
    But I am very mindful of this, and I think we need to be 
constantly vigilant both in terms of the content and 
dissemination of these materials. It is clearly an important 
issue.
    Mr. Costa. Well, as the chairman is fond of his home in New 
York and the great city that provides Broadway, I am very fond 
of that great musical from South Pacific, the song that talks 
about you have to teach to hate. And I think the teaching of 
hatred starts in the early years with these children, and I 
think that is a quick way to maybe begin to try to turn the 
table.
    Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you, Mr. Costa.
    Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman.
    Mr. Secretary, we, I think, are all in agreement that we 
want to export from our country the principles of political and 
religious freedom. What do you think is the best means of doing 
that? How do we most effectively export the principles of 
political and religious freedom?
    Mr. Posner. You know, I guess what I would say is, going 
back to the chairman's opening comments, I think the way in 
which we do this is as important as the content, and one of the 
things that we have going for us is that we are not talking 
just about exporting a kind of American approach. We are 
talking about what really are universal legal standards, legal 
norms that have been developed over the last 60 years, to which 
a great majority of countries in the world at least profess on 
paper to believe are right.
    So, we are not coming in to simply say, here is the 
American model; do it. We are saying, hey, look at the world. 
This is the new paradigm. Post-World War II, the Universal 
Declaration of Human Rights and a range of treaties have set 
forth some basic premises. It is a floor, not a ceiling. Every 
government ought to be doing it. You ought to be doing it just 
like your neighbor is doing it or just like the country down 
the street.
    I think when we talk about principled engagement, that is 
what we are talking about. We ought to be one voice, a loud 
voice, but a loud voice that is part of a chorus that is 
basically saying if you want to be recognized in the world, if 
you want to trade, if you want to compete, if you want to live 
in harmony, this is what the world is now expecting.
    I think it is a long process. I don't promise that 
overnight that is going to work. But our approach is very much 
to say let us try to build some momentum by getting multiple 
voices and being part of that process to really pushing for 
these things based on universal standards.
    Mr. Inglis. Sometimes it involves support of organizations 
in countries that are doing those things or subscribe to those 
views. How do we support those effectively without tainting 
them with the American influence that causes them to be suspect 
in that country?
    Mr. Posner. That is a good question, and I think there is 
sort of a delicate balance between, as you say, being 
supportive without tainting people. But I think there are at 
least three things we can do.
    One is we can be very vigilant when the defenders of 
freedom or religious community get in trouble. We can be a 
lifeline of protection. It also always is valuable for us to 
speak out. The examples that come across my desk all the time 
are there of individuals on whose behalf we have registered our 
concerns, and governments take notice of that. So that is point 
one.
    The second thing is that I think we can help amplify their 
voices. I said earlier that I believe strongly that change 
occurs from within societies. It is very hard to force it from 
outside. But there is now a very active debate about human 
rights and a deep desire within every society in the world to 
begin to take greater responsibility for promoting a more open 
and democratic way of doing things.
    We ought to be identifying those people and helping them to 
amplify their voices. We have a new set of communication tools 
with the Internet. We ought to be doing everything in our power 
to make sure that those messages get heard.
    And then the third thing, and, again, this is on a country 
or case-by-case basis, there are moments where we can provide 
direct financial and material technical support. And where 
people desire it, we ought to be thinking creatively about how 
do we push the edge of what is possible to promote free media, 
to promote civil society, human rights and other organizations, 
and actually give them support to do the work?
    Mr. Inglis. Some of us have been concerned that the 
administration may be backing away from those folks in Iran who 
would be promoting the values that we are discussing here. Do 
you have any comment on that?
    Mr. Posner. Yes. Again, I don't accept that. In the last 
week, the amount of energy that the U.S. Government has devoted 
to getting a favorable result on a very strong resolution at 
the U.N. General Assembly that is going to be voted on today or 
tomorrow on Iran is a testament to the fact that people are 
really paying attention to this. It is really important that we 
be out there publicly. It is important to the people of Iran 
that they know that we are out there publicly.
    This resolution at the General Assembly, which I am 
cautiously optimistic is going to pass, sends a very strong 
signal, and we are very much in the lead in trying to make sure 
that resolution gets a favorable outcome.
    We have to keep pushing on these things. We have concerns 
about nuclear programs and whatever else, but these issues are 
absolutely essential, especially in the aftermath of the 
violent attacks on civil society after the elections. We have 
to redouble our efforts.
    Mr. Inglis. Thank you, Mr. Chairman.
    Mr. Ackerman. Mr. Secretary, I want to ask you about a 
minority that is very often overlooked in the Middle East, and 
I am talking specifically about Palestinian Christians, a group 
that has been under a lot of pressure for a long period of 
time, very oft ignored by the rest of the world, even the human 
rights and freedom of religion advocates from all over, 
including our own country.
    It seems if you look at the statistics and the numbers, the 
Palestinian Christian community is being diminished in the land 
of Christianity, in the birthplace of Christianity, almost like 
no other group, and no other group of numbers have been ravaged 
in a long period of time.
    I know that as the holiday season approaches and Christmas 
nears, it becomes a great place for Christians to visit, as 
well as others, but a very difficult place for Christians to 
live. It would be almost sinful, if I can use that word in a 
political context, for the birthplace of Christianity to be 
devoid of Christians, which is basically what is happening.
    Almost every Palestinian Christian that I know, if they 
could, would get a passport, or is trying to get a passport, if 
not for themselves, for their children and their families, to 
be able to get out. And that is evidenced all over the world, 
anywhere they could go to in the free world. And very few 
people will have them to begin with.
    What do we do about that, besides using them as a great 
photo opportunity on December 25th?
    Mr. Posner. It is, as you say, a problem, and a growing 
problem. The numbers have diminished. I have met with 
representatives. Again, in my previous NGO life, I visited 
Nazareth, and I visited Bethlehem, and I talked with leaders of 
those communities, and they are shrinking communities. As you 
say, there is no doubt about that.
    I think this is part of a broader discussion about what we 
can and should be doing with the Government of Israel as a 
friend, but as a friend that is willing to talk directly about 
issues that really are essentially confidence-building 
measures.
    These are issues that haven't gotten the attention, I agree 
with you----
    Mr. Ackerman. Are you saying it is an Israeli problem and 
not a Muslim problem?
    Mr. Posner. Well, I think it is both. There are elements of 
it that are certainly----
    Mr. Ackerman. I have spoken to any number, and when they 
speak to you with a great deal of confidence, any of them who 
could have an opportunity to live in Israel within the 1948 
borders or the 1967 borders or any other borders would seize 
the opportunity. And certainly the income level and opportunity 
level of Palestinian Christians within Israel is so much higher 
not just in dollars, but by multiples and factors than they are 
in anyplace that they are living right now within the cities 
and towns that you have just cited, as well as within the 
entire rest of the Arab world.
    Mr. Posner. All of what you just said is right, and there 
are obviously huge tensions, interreligious tensions within the 
Palestinian community. That is a piece of it we have to be 
attentive to. And there is also a piece of it that I think the 
Government of Israel bears responsibility for. And on both 
sides, I think as part of a broader----
    Mr. Ackerman. Are you talking about the general economy in 
the region?
    Mr. Posner. Yes, and provisions that discriminate on the 
basis of prior military service and the like. I mean, there are 
the income levels----
    Mr. Ackerman. I am not sure what you are talking about. 
Israel has universal military service for all of its citizens. 
Any Palestinian, Christian or Muslim living within Israel who 
is an Israeli citizen----
    Mr. Posner. Palestinians don't routinely serve in the 
military.
    Mr. Ackerman. They do not.
    Mr. Posner. No. So I guess the point for me----
    Mr. Ackerman. Not traditionally. Traditionally they don't.
    Mr. Posner. Not traditionally. So I view this as an 
opportunity. There are so many places. It is so easy to----
    Mr. Ackerman. But I don't think the problem of the 
Christian community is that they thirst to serve in the Israeli 
military and they are not able to. That is not what I am 
talking about. If you think that is the benefit that I am 
talking about, then we are talking different languages.
    Mr. Posner. No. What I am saying is there are certain 
social services and social benefits that are tied to military 
service. If you look at the----
    Mr. Ackerman. I am talking about the huge populations 
within the Christian Palestinian community, and as I understand 
it, we are not talking about Israeli communities and 
territories. We are talking about Palestinian-controlled 
territories, although under Israeli administration. This is not 
in Israel proper.
    Mr. Posner. We are having two different discussions here.
    Mr. Ackerman. We sure are.
    Mr. Posner. One, we have to talk about the situation of 
Palestinians that are living within the green line, within 
Israel.
    Mr. Ackerman. I am talking about Christians.
    Mr. Posner. That is right. Palestinian Christians living 
within Israel is one subject, and then a second subject----
    Mr. Ackerman. Which communities are you talking about?
    Mr. Posner. I am talking about the first. And with respect 
to the Palestinians----
    Mr. Ackerman. No, which neighborhoods?
    Mr. Posner. With respect to Palestinians, let me start 
where you are focused.
    Mr. Ackerman. Are you talking about Bethlehem? Is that in 
Israel?
    Mr. Posner. No, Bethlehem is in the West Bank.
    Mr. Ackerman. That is what I am talking about. People 
living in Bethlehem don't serve in the Israeli Army. Their 
problems are with the exercise of their religious freedom. 
Those, for the most part, are within the communities, 
Bethlehem, Nazareth. Those are the bulk of them. Those are 
where the populations have been depleted.
    Mr. Posner. We agree that there needs to be more attention 
to this, and----
    Mr. Ackerman. Look, I am all for solving the Israeli, 
Palestinian, Arab, Jewish, whatever you want problem, but I am 
talking about the specific problems, religious problems, that 
the Christians are facing.
    Mr. Posner. And we are in the middle of a discussion, a 
range of discussions, with the Palestinian Authority, and the 
Palestinian Authority ought to be pushed as hard as possible to 
do what they can, given their authority over the population 
there. I totally agree with that.
    Mr. Ackerman. Okay. I think that is part of the problem, 
why this problem hasn't been addressed. It is being looked at 
as part of the Israel-Palestinian conflict. And what I am 
talking about is the free exercise of the Christian religion 
within Christian towns and villages. I am not talking about the 
overall construct, but I am talking about who is putting down 
what pressure on their lives as a specific community. And we 
could argue Israel's role in the West Bank or anyplace else, 
but I am talking about Christian holy sites. Most of that is 
not a conflict with Israel at all.
    Mr. Posner. I agree with you.
    Mr. Ackerman. The Christian community is not living under 
Israel's rules; they are living under Palestinian Authority's 
rules and regulations and the ability to exercise control over 
their own religious sites. Most don't control their own 
religious sites. That is not Israel, that is the Palestinian 
Authority.
    Mr. Posner. And we should be raising that.
    Mr. Ackerman. And we should, before that community 
disappears.
    Mr. Secretary, you have been very kind, and I appreciate 
the fact that you and we had to wait while another subcommittee 
was using the room, getting us off to a late start. But you 
have answered all of our questions and concerns and have been a 
great help to the deliberations of this subcommittee.
    We stand adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Eshoo and Wolf deg._

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Questions--Anna Eshoo deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>IRF Report submitted by ??? deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
